             Audit Report



  Bond and Financial Credit Risk
Requirements for Non-governmental
  Fee-for-Service Representative
              Payees




       A-05-12-11225 | March 2014
MEMORANDUM


Date:      March 28, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Bond and Financial Credit Risk Requirements for Non-governmental Fee-for-Service
           Representative Payees (A-05-12-11225)

           The attached final report presents the results of our audit. Our objectives were to assess the
           Agency’s procedures to ensure non-governmental, fee-for-service representative payees
           (1) maintained sufficient bond or insurance coverage and (2) underwent a financial credit risk
           review. We also assessed the training and support provided to regional and field office
           employees responsible for this oversight.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Bond and Financial Credit Risk Requirements for Non-
governmental Fee-for-Service Representative Payees
A-05-12-11225
March 2014                                                                  Office of Audit Report Summary

Objectives                                  Our Findings

To assess the Agency’s procedures to        SSA had established sufficient procedures to ensure non-
ensure non-governmental,                    governmental FFS representative payees maintained bond or
fee-for-service (FFS) representative        insurance coverage and had financial credit risk reviews. However,
payees (1) maintained sufficient bond       Agency staff did not always follow, or appropriately document,
or insurance coverage and                   procedures to mitigate potential risks. In addition, we found that
(2) underwent a financial credit risk       greater collaboration between the FOs, regions, and Regional Chief
review. We also assessed the training       Counsels could enhance the oversight process.
and support provided to regional and
field office (FO) employees                 We sampled bond and insurance documents and related SSA
responsible for this oversight.             controls associated with 25 FFS representative payees and found
                                            issues related to (1) insufficient policy coverage, (2) problems with
Background                                  policy titling, (3) undocumented annual policy re-certifications, and
                                            (4) incomplete triennial site review questionnaires. For instance,
The Social Security Administration          we found that 10 representative payees did not name SSA on the
(SSA) requires that non-governmental        bond, though they had sufficient coverage amounts.
representative payees who apply to
collect a fee to serve five or more         In our review of 22 Headquarters-prepared credit report summaries,
individuals obtain sufficient bond or       we found FO staff certified a representative payee to collect fees
insurance coverage and maintain             before reviewing the payee’s credit report summary. We also found
appropriate State licensing. The            the summaries provided limited guidance for handling
amount of the bond must be sufficient       organizations rated as high risk. In addition, some of the
to compensate the organization or SSA       contractor-prepared credit reports provided insufficient financial
for any loss of SSA client benefits and     information. The Agency’s nationwide implementation of a more
conserved funds.                            stringent selection process for individual representative payees
                                            offers an opportunity to explore additional approaches to alleviate
Additionally, SSA performs a financial      business risks associated with FFS representative payees.
credit risk review before authorizing a
non-governmental organization to            Recommendations
serve as an FFS payee to assess
potential business risks involved in the    We made a number of recommendations related to improving bond
organization’s current or future            collection efforts and increasing the value of the financial credit
performance as a representative payee.      risk review process.

Once SSA allows an organization to          SSA agreed with our recommendations.
collect fees, the Agency performs
periodic reviews of the organization,
including educational visits, annual
re-certifications, and triennial reviews.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Sufficiency of Bond and Insurance Coverage ...........................................................................3
           Sufficiency of Bond and Insurance Amounts ......................................................................3
           Sufficiency of Bond and Insurance Language .....................................................................4
     Sufficiency of Bond and Insurance Monitoring.........................................................................5
           Annual Re-certifications ......................................................................................................5
           Triennial Site Reviews .........................................................................................................5
     Complexity of Bond and Insurance Coverage ...........................................................................6
     Credit Risk Review Process .......................................................................................................8
           Timing of Fee Approvals .....................................................................................................8
           Sufficiency of Credit Report Information and Related Guidance .......................................9
Conclusions ....................................................................................................................................10
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................11
Appendix A – SSA’s Fee for Service Approval and Monitoring Process ................................. A-1
Appendix B – Scope and Methodology ..................................................................................... B-1
Appendix C – Sufficiency of Bond and Insurance Coverage for 25 Fee-for-Service
           Representative Payees............................................................................................ C-1
Appendix D – Prior Fee-for-Service Representative Payee Reviews ........................................ D-1
Appendix E – Questionnaire Responses .....................................................................................E-1
Appendix F – Background Checks on Fee-For-Service Representatives Payees ....................... F-1
Appendix G – Agency Comments .............................................................................................. G-1
Appendix H – Major Contributors.............................................................................................. H-1




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)
ABBREVIATIONS
Fed. Reg.           Federal Register

FFS                 Fee-for-Service

FO                  Field Office

FY                  Fiscal Year

NAS                 National Academy of Sciences

OASDI               Old-Age, Survivors and Disability Insurance

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

RCC                 Regional Chief Counsel

RO                  Regional Office

RPMA                Representative Payee Monitoring Application

RPS                 Representative Payee System

SSA                 Social Security Administration

SSI                 Supplemental Security Income

U.S.C.              United States Code




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)
OBJECTIVES
Our objectives were to assess the Agency’s procedures to ensure non-governmental,
fee-for-service (FFS) representative payees (1) maintained sufficient bond or insurance coverage
and (2) underwent a financial credit risk review. We also assessed the training and support
provided to regional (RO) and field office (FO) employees responsible for this oversight.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of their
youth or mental and/or physical impairment. Congress granted the Social Security
Administration (SSA) the authority to appoint representative payees to receive and manage these
beneficiaries’ payments. 1 A representative payee may be an individual or an organization. SSA
selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI) 2 and
Supplemental Security Income (SSI) 3 beneficiaries 4 when representative payments would serve
the individual’s best interests.

In Fiscal Year (FY) 2012, SSA reported approximately 5.9 million representative payees
managing $72 billion in annual benefits for about 8.4 million beneficiaries. Of the 5.9 million
payees, SSA noted that about 38,500 were organizational payees, with approximately 1,400 of
these serving as FFS organizational representative payees. 5 Generally, SSA appoints and
authorizes an FFS representative payee to collect a fee from beneficiary funds 6 only when a
family member is unable, unavailable, unwilling, or unqualified to serve. 7

To protect the interests of its most vulnerable beneficiaries, SSA requires that non-governmental
representative payees who apply to collect a fee to serve five or more individuals obtain



1
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii)(I); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii)(I).
2
 The OASDI program provides benefits to qualified retired and disabled workers and their dependents as well as to
survivors of insured workers. Social Security Act § 201 et seq.; 42 U.S.C. § 401 et seq.
3
 The SSI program provides payments to individuals who have limited income and resources and who are age 65 or
older, blind, or disabled. Social Security Act §1601 et seq.; 42 U.S.C. § 1381 et seq.
4
    We use the term “beneficiary” in this report to refer to both OASDI beneficiaries and SSI recipients.
5
  SSA reported approximately 156 more FFS payees than the 1,244 we identified in our review. The difference in
total payees appears to relate to SSA’s inclusion of former FFS payees as well as incorrect payee classifications.
6
 Organizations can collect the lesser of 10 percent of the combined Title II and XVI monthly payment, or,
beginning December 2012, $76 (if the beneficiary was entitled to disability benefits and had a medically
determinable substance abuse disorder that was listed as a secondary diagnosis) and $39 for all others. The abuse
disorder cannot be material to the disability determination.
7
 SSA, Program Operations Manual System (POMS), GN 00502.105C—Payee Preferences Lists (effective
August 2, 2011), states an organization that charges a fee for its service is the least preferred applicant. See also,
SSA Annual Report on the Results of Periodic Representative Payee Site Reviews and Other Reviews, FY 2012.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                              1
sufficient bond or insurance coverage 8 and maintain appropriate State licensing. 9 The amount of
the bond must be sufficient to compensate the organization or SSA for any loss of SSA client
benefits and conserved funds. 10 Additionally, SSA performs a financial credit risk review before
it authorizes a non-governmental organization to serve as an FFS payee. SSA performs this
review to assess potential business risks involved in the organization’s current or future
performance as a representative payee. Once an organization is allowed to collect fees, SSA
performs periodic reviews of the organization, including educational visits, annual re-
certifications, and triennial reviews.

To meet our objectives, we reviewed Agency policies and procedures related to bond and
insurance coverage as well as credit risk reviews. In addition, we reviewed a sample of FFS
representative payee bond and insurance policies, SSA triennial site review questionnaires, and
credit risk reviews to determine whether they complied with SSA policies. We also interviewed
and surveyed Agency managers and staff at Headquarters, ROs, Regional Chief Counsels’
(RCC) offices, and FOs. See Appendix B for more information regarding our scope and
methodology.

RESULTS OF REVIEW
SSA had established sufficient procedures to ensure non-governmental FFS representative
payees maintained bond or insurance coverage and had financial credit risk reviews. However,
Agency staff did not always follow, or appropriately document, procedures to mitigate potential
risks. In addition, we found that greater collaboration between the FOs, ROs, and RCCs could
enhance the oversight process.

We sampled bond and insurance policy documents associated with 25 FFS representative payees,
24 of which were non-governmental organizations and subject to the bond criteria, 11 and found
1 payee had insufficient bond coverage and did not name SSA in the policy. This representative
payee obtained sufficient coverage during the period of our review. We also found 10 payees
did not name SSA on the bond but had sufficient coverage.

Additionally, we noted several documentation issues associated with the same
24 non-governmental FFS representative payees. We found 11 triennial review questionnaires
had incomplete information regarding Agency staff review of the bonds, and FO staff did not




8
    Throughout the report, the term “bond” can represent either a bond or an insurance policy.
9
  SSA, POMS, GN 00506.001—Fee for Service – Overview (effective October 26, 2005). We did not review State
licensing as part of this audit. We provide a flow chart of the FFS approval and monitoring process in Appendix A.
10
  Governmental representative payees, such as State and local organizations, are not subject to bond or insurance
coverage requirements, though some organizations may maintain bonds or insurance associated with their own
business practices.
11
     The remaining bond related to an FFS representative payee labeled by SSA as a “state/local government.”



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                          2
document annual re-certifications of bond coverage for 8 FFS representative payees. As a result,
we could not determine whether SSA had complied with policy.

Our review of 22 credit report summaries identified 1 instance where an FO approved the payee
to collect a fee before it received the credit report summary. In addition, we found that although
the credit risk review process was designed to assess the organization’s credit risk, the
contractor-prepared credit reports did not always contain sufficient information to help the
Agency identify organizations whose operations may have needed to be monitored more closely.
Moreover, SSA had no specific monitoring requirement when the contractor-provided report
assessed a representative payees’ credit or financial information as “high risk.” At the time of
our review, SSA was piloting a more stringent payee selection policy for individual
representative payees, which was subsequently implemented nationwide. The Agency should
consider whether additional enhancements could also improve the process for determining the
suitability of FFS payees.

Sufficiency of Bond and Insurance Coverage
Our review of 25 FFS bond documents, 24 of which were non-governmental organizations and
subject to the bond criteria, 12 identified a number of issues related to the sufficiency of the bond
policies in terms of the amount of coverage and the language protecting SSA’s interests.

Sufficiency of Bond and Insurance Amounts
                                              In our review of bond coverage, we found that 1 of
                                              the 24 non-governmental FFS representatives had
                                              insufficient coverage in FY 2011. SSA policy
       The bond policy did not                requires that non-governmental FFS representative
       cover half of the SSA                  payees obtain bond coverage sufficient to compensate
       monthly benefits.                      the organization or SSA for any loss of SSA client
                                              benefits and conserved funds. While the FFS
                                              representative payee in our sample had $100,000 in
                                              dishonesty bond coverage in FY 2011, we estimated
the representative payee received approximately $205,567 in monthly benefit payments. 13 As a
result, the policy did not cover half of the monthly benefits SSA paid before factoring in
conserved funds. 14




12
  These cases were taken from an earlier Office of the Inspector General (OIG) audit, Representative Payees’
Ability to Monitor the Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146), June 2012. The focus
of this review did not relate to whether an entity was a governmental or non-governmental representative payee.
13
  See Appendix C for more information regarding the sample of 25 FFS representative payees and our analyses of
the sufficiency of the bond and insurance coverage.
14
     We were unable to determine the amount of conserved funds from the available documentation.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                      3
The payee corrected the inadequate bond coverage during our review period. According to
SSA’s Representative Payee System (RPS), the payee’s policy coverage increased to $1 million
on March 1, 2013, close to the date SSA conducted its March 4, 2013 triennial site review. Data
in the Representative Payee Monitoring Application’s (RPMA) Certification Visit History
indicated SSA certified the $1 million policy on March 4, 2013, and the policy was scheduled to
expire on March 1, 2014. 15 The RPMA certification also indicated that, before March 2013,
the follow-up date for the policy was March 1, 2010, which was when SSA last conducted a
triennial site review. Had SSA FO staff reviewed the bond coverage and the number of
beneficiaries served annually, as required by Agency policy, it is likely they would have noted
the policy amount was insufficient to cover any potential losses. 16

Sufficiency of Bond and Insurance Language
We also found that 11 of the bond policy documents 17 from the 24 non-governmental FFS
representative payees did not name SSA as the “loss” party. 18 These 24 representative payees
had more than 5 different types of bond policies covering their programs. 19 SSA guidance states
that the bond policy must reflect SSA as an insured party in the event of financial loss. 20 This
guidance also states that the payee must obtain a separate clause/rider to cover losses to the
Agency if the contract does not name SSA. 21 Two prior OIG reviews of FFS representative
payees found that the payees did not maintain adequate policy language to protect beneficiaries
or SSA from financial loss caused by its officers or employees. 22 In one case, the bond
requirement was approximately $1.9 million. However, the payee maintained only $900,000 in
bond coverage and improperly named itself as the insurance contract beneficiary rather than
SSA. Although the SSA contractor who reviewed the payee’s operations during a triennial site
review reported the policy deficiency to SSA, the Agency did not require that the payee correct
the policy language. Because the payee failed to carry out all of its obligations, SSA was unable
to recover losses from the insurer in part because of the inadequate bond policy language. 23




15
  Agency staff uses the RPS and the RPMA to store and monitor FFS representative payees’ information from
SSA’s oversight activities.
16
     We discuss the sufficiency of bond monitoring later in this report.
17
     These 11 cases included 1 FFS representative payee with insufficient bond coverage.
18
  A loss payee clause (or loss payable clause) provides that if a payment is made under the policy in relation to the
insured risk, it will be made to a third party rather than to the insured beneficiary of the policy.
19
     See Appendix C for more on the types of bonds maintained by the FFS representative payees in our sample.
20
 SSA, POMS, GN 00506.105—Bonding and Licensing Guidelines for Non-Governmental Fee-for-Service (FFS)
Organizations (effective October 24, 2011).
21
     Id.
22
     See Appendix D for details regarding the two prior FFS reviews.
23
     The Agency was still pursuing collection at the time of our review.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                             4
Sufficiency of Bond and Insurance Monitoring
Our review of SSA’s monitoring of the 24 non-governmental FFS representative payees
identified documentation issues related to annual and triennial monitoring. As a result of the
missing and incomplete documentation, we could not determine whether SSA had complied with
policy.

Annual Re-certifications
Our review of data in the RPMA Certification Visit History for the 24 non-governmental FFS
representative payees found that FO staff did not document annual re-certifications of bond
policy coverage for 8 FFS representative payees for some of the years between 2009 and 2012. 24
SSA policy states that the servicing FO is responsible for annually re-certifying each FFS
payee’s continuing eligibility. Among other things, this entails verifying the wording in the bond
document complies with SSA policy guidance, 25 including the amount of coverage, active status,
and naming SSA as the loss party. 26 The annual review of the bond document is necessary to
ensure adequate policy coverage, considering the complexity of the language used in bond
policies and the types of coverage available.

Triennial Site Reviews
We found that SSA staff did not fully document the bond-related results in 11 of the 24 triennial
site review questionnaires related to the 24 non-governmental FFS representative payees. SSA
performs triennial site reviews of FFS representative payees’ performance to ensure their
continued eligibility to collect fees. As part of this process, SSA staff completes an Expanded
Monitoring Program Site Review Questionnaire for Volume and Fee for Service Payees
(Form SSA-637) for each payee and writes a summary report of the findings. We reviewed the
bond coverage information on the completed SSA-637 questionnaires for 23 of the
24 non-governmental FFS organizational representative payees. 27 The questionnaires for 11 of
the 23 non-governmental FFS representative payees did not contain enough information for an
independent reviewer to determine whether bond coverage was sufficient to protect SSA from
losses in case of misuse. Specifically, the bond-related section in the SSA triennial site review



24
     We did not include years when SSA performed the triennial site visit since this equates to an annual certification.
25
 The annual certification process also determines whether the FFS representatives (1) continue serving five or
more beneficiaries, (2) maintain required State licenses, and (3) had independent audits since the prior certification.
26
   SSA, POMS, GN 00506.420—Certification Process (effective November 23, 2011). POMS requires that the FO
staff request a copy of the entire bond contract if not already available. If available, the staff only needs to request
the latest declaration page. POMS also instructs FO staff to contact the bonding agent to resolve discrepancies and
concerns, as appropriate.
27
  We reviewed 1 of the 20 Parts in Form SSA-637, Part 6 – Bonding, Questions 28-31. For the one representative
payee for which we did not receive an SSA-637, we reviewed its triennial site review summary report and
determined the FO did not report any issues pertaining to bonds.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                                5
questionnaires contained multiple unanswered questions for the 11 representative payees (see
Table 1). 28

        Table 1: Questions Not Answered on the 23 Triennial Site Review Questionnaires1
                                                                                 Number of    Percent of
                                                                                 Forms with   Forms with
                   Triennial Site Review Questions
                                                                                  Question     Question
                                                                                            2
                                                                                Unanswered Unanswered
     Amount of conserved funds for Social Security and SSI benefits                    11                  48
     Average amount of the Social Security and SSI benefits paid in
                                                                                       10                  43
     1 month
     Minimum required bond amount                                                       8                  35
     Whether the representative payee continued meeting bonding
                                                                                        4                  17
     requirements
     Whether the bond amount was sufficient                                             3                  13
     Whether the representative payees were bonded                                      1                   4
Note 1: We did not receive a questionnaire for 1 of the 24 non-governmental FFS representative payees in our
        sample.
Note 2: Some of the questionnaires related to the 11 FFS representative payees had more than one unanswered
        question.

Since triennial site reviews are an important part of the monitoring process for FFS
representative payees, we believe ROs should ensure FOs and cadres completing the
questionnaires provide complete and accurate responses reflecting the findings of the reviews.

Complexity of Bond and Insurance Coverage
SSA procedures acknowledge that the bonding and insurance industry offers many types of
coverage, and some policies could have clauses that would limit recovery efforts. 29 For example,
SSA guidance cites surety bonds, fidelity and dishonesty bonds, fiduciary bonds, insurance
contracts, and simplified crime insurance contracts, which may have further subsets. 30 SSA


28
  Staff in the Seattle RO noted that the triennial site review questionnaire may have been missing this information
because the bond verification steps are performed at the regional level rather than by the team performing the
review. We did not see any annotations to this effect in the documents we reviewed. Moreover, to the extent the
regions are documenting the triennial review outside of the questionnaires, the site review questionnaires will not
provide a full accounting of the review findings.
29
  SSA, POMS, GN 00506.105—Bonding and Licensing Guidelines for Non-Governmental FFS Organizations
(effective October 24, 2011). See Appendix C for the variety of policies used by the FFS representative payees in
our sample.
30
  Id. For instance, simplified crime insurance policies include (1) employee theft/dishonesty; (2) depositor’s
forgery or alteration; (3) theft, disappearance, and destruction of money, securities, and other property (inside and
outside the premises); (4) computer fraud and funds-transfer fraud; and (5) money orders and counterfeit currency.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                             6
procedures also indicate that most bonding and insurance contracts are acceptable, provided the
policy contains certain guarantees, such as coverage of theft by employees and officers, and
names SSA as the loss party. Some of these policies may require specific riders to ensure certain
parties are covered or internal controls are established. 31 Considering the complexity of the
language in bond policies and the various types of coverage available, having such specialists as
RCCs and Office of General Counsel attorneys review the FFS representative payees’ bond
documents could help promote adequacy and consistency while protecting the Agency’s
interests.

                                                    Among the 24 non-governmental FFS bond
                                                    and insurance policies we reviewed, we found
                                                    a wide variance in the levels and types of
                                                    coverage, even for the organizations that
       Bond coverage per beneficiary
                                                    managed similar numbers of beneficiaries. For
        ranged from a low of $144 to a
                                                    example, the dollar amounts of bond coverage
                high of $22,936.
                                                    per beneficiary varied from a low of $144 to a
                                                    high of $22,936. The bond policies noted that
                                                    they covered the insured for various types of
losses and risks, such as (1) employee theft, (2) crime, (3) professional liability, (4) fidelity, and
(5) surety. 32 Given the complexity, we believe SSA should reassess whether the current policies
and procedures have been standardized and streamlined to ensure bond coverage for its
non-governmental FFS representative payees is appropriate to address the risk of having those
payees manage the benefits of its most vulnerable clients.

In discussions with the Seattle RO, we learned that its staff annually reviewed each bond policy
before it expired and determined whether the wording included employee and officer theft. In
addition, staff determined whether the policy properly included SSA as an insured party. If staff
found bond policies contained vague, inadequate, or improper wording, they asked the payee to
revise the policy to ensure appropriate coverage. Regional staff also coordinated with the RCC,
as appropriate, when reviewing bond coverage or pursuing collections. Sharing these and similar
practices with other ROs could enhance the Agency’s protections against misuse of beneficiary
funds by FFS payees. 33




31
  Id. For instance, an employee dishonesty bond may also require the bondholder to have certain loss prevention
procedures in place, such as annual audits by a certified public accountant or employee discharge notifications from
the employer as well as the reason for the discharge.
32
     See Appendix C for more information, including definitions, on the 24 bond documents we reviewed.
33
     We discuss additional observations from FO and RO managers and staff in Appendix E.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                        7
Credit Risk Review Process
To assess the controls over FFS representative payee credit risk review process, we sampled
22 credit report summaries provided to FOs, a different sample from the 25 FFS representative
payees we discussed earlier in this report. We reviewed the timing of fee approvals, the
sufficiency of information in the credit reports, and guidance for Agency staff to resolve
identified problems.

Timing of Fee Approvals
In all but one case, we found FO staff was reviewing the credit report summaries before
authorizing a representative payee to collect a fee. In the one case, the FO approved the
organizational representative payee’s request to collect fees before obtaining the
Headquarters-prepared credit report summary. SSA Headquarters staff obtains credit reports
from a contractor to evaluate any potential financial credit risks involved in the organization’s
current and future performance as a representative payee. The credit reports provided to SSA
include a variety of business indicators, such as Financial Stress Class ratings, Credit Score
Class ratings, and Credit Limit Recommendations. The reports also provide background on the
organization, such as business history, business registrations, and financial statement data. SSA
Headquarters uses information in the contractor-prepared credit report to create its own credit
report summary document. Per SSA policy, the FO cannot approve an FFS application until a
credit report summary has been prepared and provided to the FO.

                                                We reviewed 22 credit report summaries related to
                                                the same number of organizational representative
                                                payee applicants requesting to collect a fee from
                                                August through October 2012. 34 As of July 2013,
        The FO authorized a fee
                                                SSA authorized 18 of the 22 organizational
       before requesting a credit
                                                representative payees to charge a fee, 35 including
             report summary.
                                                1 FFS representative payee serving
                                                500 beneficiaries approved in September 2012,
                                                though the credit report summary was not prepared
until October 18, 2012. As a result, SSA missed an opportunity to address potential risks
involved in the organization's current or future performance as a representative payee before
allowing it to collect fees for these services.

We spoke to SSA staff about the case and learned that, while SSA confirmed the FO authorized
the organization to charge a fee before requesting a credit report summary, it did not direct the
FO to terminate or revoke the authorization pending the required receipt and review of the credit



34
  In November 2012, SSA provided recently prepared credit report summaries and contractor-produced credit
reports for organizations requesting authorization to charge a fee.
35
     For more information, see Appendix A for a flowchart of the SSA’s FFS approval and monitoring process.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                   8
report summary. We reviewed a copy of the credit report summary for this representative payee,
which reported the organization was in good standing and had a comprehensive credit report
with a good rating. Nonetheless, SSA should remind employees to complete the credit risk
review process before approving the organizational representative payee’s FFS application to
ensure all potential risks are known before the fee is approved.

Sufficiency of Credit Report Information and Related Guidance
We found the credit reports SSA received from the contractor did not always contain enough
information to help the Agency identify organizations whose operations needed to be more
closely monitored. Additionally, Headquarters-prepared credit report summaries did not explain
what steps may be necessary should a business risk exist. We reviewed the credit report
summaries and contractor-prepared credit reports for 22 organizational representative payees that
requested to collect a fee from August through October 2012 and found that the contractor
supplied credit score class ratings for 17 of the 22 organizations. The contractor did not score
the remaining five organizations because the availability of financial credit histories was limited.
Instead, it provided a more limited “business information report.” Of the 17 organizations rated,
16 were labeled low to moderate risk, and 1 was labeled as moderate to high risk. As noted
earlier, at the time of our review, 18 of the 22 organizations were eventually approved to collect
a fee.

In an email sent to its FOs, SSA stated, “We are aware that [the contractor] may have limited
information on some organizations.” In such cases, Headquarters’ staff instructs the FO staff to
rely on the other required procedures in POMS. However, even in cases where the credit reports
contained business risk information, the Agency stated, “Credit reports are not a determining
factor in the actual authorization or denial, rather a means of determining whether their credit or
financial assessment information projects them as a high risk business and if so, whether we
should keep a closer eye on their operations.”

We asked Headquarters staff whether SSA had procedures for keeping a “closer eye” on
high-risk FFS representative payees identified in the credit risk review process. Headquarters
staff indicated there was no specific monitoring requirement based on feedback about a
representative payee’s credit or financial assessment information. Instead, it appears each FO
was expected to independently determine any steps that should be taken. 36 We believe SSA
would benefit from additional guidance on the steps staff should take for new FFS representative
payees rated as high risk or where the credit reports provided limited financial information. For
instance, in those cases where the FFS representative payee organizations were not already
vetted by State or local authorities, the FO could request additional financial information directly




36
  In Appendix E, we provide feedback from FO and RO managers and staff regarding the credit risk review process
and the need for greater guidance when limited financial information is available.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                   9
from the organization, expedite triennial site reviews or cursory financial reviews, 37 and/or
request subsequent credit report summaries. At the time of our review, SSA was piloting a more
stringent payee selection policy for individual representative payees, which was subsequently
implemented nationwide. 38 Such initiatives demonstrate continuing opportunities to explore
additional approaches to alleviate business risks associated with FFS representative payees.

CONCLUSIONS
SSA had procedures to ensure non-governmental FFS representative payees maintained
sufficient bond coverage and had financial credit risk reviews. Although SSA provided guidance
and support to staff responsible for assessing bond coverage, it will benefit from reminding
employees of the importance of performing annual reviews of the adequacy of bond coverage.
For instance, we identified issues related to (1) insufficient policy coverage, (2) problems with
policy titling, (3) undocumented annual policy re-certifications, and (4) incomplete triennial site
review questionnaires. In addition, given the complexity of bond language, the Agency could
benefit from additional legal support and greater sharing of best practices, including having RO
staff annually review each bond policy before the expiration date and assess adequacy. SSA also
needs to ensure staff completes the credit risk review process before approving an FFS
representative payee. Moreover, SSA could provide greater guidance to FOs encountering
higher risk issues with FFS applicants, or reports with limited financial information. Finally,
while SSA is not required to prepare financial credit report summaries or perform background
checks for the officers of organizations requesting authorization to collect a fee, it could explore
ways to enhance its credit risk review process to add a greater level of fraud risk protection.

RECOMMENDATIONS
To improve bond and insurance collection efforts and increase the value of credit report
summaries for organizations with limited financial history, we recommend SSA:

1. Issue a reminder to employees to follow policy related to bond and insurance oversight,
   including reviewing bond and insurance coverage annually, completing all sections of the
   triennial site review questionnaires, and reviewing credit report summaries before
   authorizing fees.

2. Continue sharing regional best practices related to bond and insurance coverage and the
   credit risk review process, including those mentioned in this report, such as greater
   coordination with RCC staff.



37
   SSA already provides field offices with the flexibility to conduct unscheduled site reviews. However, the
circumstances we have cited in our report – “high risk” credit risk summaries and credit reports with limited
information – was not listed among the “Trigger Events.”
38
  In Appendix F, we discuss additional enhancements to the Agency’s current credit risk review process for FFS
representative payee organizations.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                      10
3. Determine whether the Agency needs to standardize and streamline its bond and insurance
   coverage methodology to ensure the type and amount of bond or insurance coverage is
   appropriate for the underlying risk.

4. Provide additional guidance on the steps staff should take for new FFS representative payees
   projected either high risk or where contractor-prepared credit reports provide limited
   financial information.

5. Consider enhancements to its current credit risk review process for FFS representative payee
   organizations not already vetted by State or local authorities to add a greater level of fraud
   risk protection.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix G.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)    11
                                      APPENDICES




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)
Appendix A – SSA’S FEE FOR SERVICE APPROVAL AND MONITORING PROCESS


              Representative Payee                                           Field Office                           SSA Headquarters
           The organizational representative payee               Upon receiving the application, the FO               Headquarters obtains a credit
           completes the Application to Collect a Fee1           contacts SSA Headquarters and requests a             report for the organization
           and submits it to the servicing Social Security       credit report summary for the organization           from Dun & Bradstreet
           Administration (SSA) field office (FO)                requesting authorization to charge a fee


                                                                                                                   Headquarters reviews the credit report
                                                                                                                   and prepares the credit report summary and
                                                                                                                   sends it to the requesting FO


                                                                The FO uses the Representative Payee
                                                                System to document the evidence they
                                                                obtained




                                                             After reviewing all the documentation, the
            The new fee-for-service (FFS) representative     FO issues the approval or denial notice to the
            payee can begin to collect a monthly fee for     organization and maintains this documentation
            services to SSA beneficiaries2




            The FFS representative payee will coordinate     If approved to collect a fee, SSA monitors the
            with the FO on periodic inquiries and reviews    FFS representative payee by performing
                                                             educational visits after the first 6 months,
                                                             annual recertifications, and triennial site reviews




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                                                                     A-1
Notes to our Flow Chart:

1. SSA may authorize certain organizations to collect a fee for providing representative payee services to Social Security (Title II)
   and Supplemental Security Income (Title XVI) beneficiaries. See SSA’s Internet site for more
   information http://www.ssa.gov/payee/fee_fact_sheet.htm.

2. Organizations can collect the lesser of 10 percent of the combined Title II and XVI monthly payment, or, beginning December
   2012, $76 (if the beneficiary was entitled to disability benefits and had a medically determinable substance abuse disorder that was
   listed as a secondary diagnosis) and $39 for all others. The abuse disorder cannot be material to the disability determination.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                                             A-2
Appendix B – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

   Reviewed applicable Federal laws and regulations as well as Social Security Administration
    (SSA) policies and procedures pertaining to fee-for-service (FFS) representative payees.

   Interviewed staff in the Agency’s Office of Retirement and Disability Policy, Seattle
    Regional Office (RO) Center for Programs Support, and the Seattle Regional Chief Counsel
    (RCC) office to gain a better understanding of bond certification and the financial credit risk
    review process.

   Reviewed training and guidance materials available on regional Intranet sites related to bond
    policies and financial credit risk reviews.

   Obtained and reviewed a sample of 25 FFS large-volume representative payees from an
    earlier SSA Office of the Inspector General audit, Representative Payees’ Ability to Monitor
    the Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146), June 2012, to
    assess the sufficiency of their bond and insurance coverage.

   Obtained and reviewed 22 Headquarters-prepared credit report summaries associated with
    representative payee applicants requesting to collect a fee from August through
    October 2012. Reviewed the Dun & Bradstreet credit reports used to create the credit report
    summaries.

   Obtained a data extract in October 2012 from SSA’s Master Representative Payee file, which
    listed 589 field offices (FO) responsible for approximately 1,244 FFS organizations. We
    then identified the FOs serving these FFS representative payees, randomly selected 10 FOs
    per region, if available, and sent each FO a questionnaire to assess the guidance and support
    provided by Headquarters and the ROs related to bond and insurance coverage and the credit
    risk review process.

   Sent questionnaires to SSA’s 10 regional management teams and RCC offices to assess the
    guidance and support provided to FOs responsible for monitoring the sufficiency of bond and
    insurance coverage and credit risk review process.

We conducted the audit from June 2012 through July 2013 in Chicago, Illinois, and Baltimore,
Maryland. We relied on the representations of Agency personnel indicating the Representative
Payee System data were complete and accurate. The entity audited was the Office of the
Deputy Commissioner for Operations. We conducted our work in accordance with generally
accepted government auditing standards. Those standards require that we plan and conduct the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)      B-1
Appendix C – SUFFICIENCY OF BOND AND INSURANCE
             COVERAGE FOR 25 FEE-FOR-SERVICE
             REPRESENTATIVE PAYEES
We reviewed available bond and insurance policies for 25 fee-for-service (FFS) representative
payees. 1 Of the 24 non-governmental FFS representative payees subject to the bond or insurance
requirement, we estimated that all but 1 of the 24 FFS representative payees purchased sufficient
policy coverage. 2 The 24 non-governmental FFS representative payees selected had about
15,500 beneficiaries in their care and managed approximately $5.5 million in benefit payments
each month during Fiscal Year (FY) 2011 (see Table C–1: ).

                      Table C–1: Sufficiency of Bond or Insurance Coverage for
                          24 Non-Governmental FFS Representative Payees
                          Total
                       Number of
        FFS                                                         Total Monthly            Type of Policy
                      Beneficiaries      Bond or Insurance
    Representative                                                 Benefit Payments        Listed on Bond or
                       Managed              Coverage
       Payees                                                         Managed             Insurance Document
                         During
                        FY 20111
            1              3,252             $3,000,000               $1,261,689                  Crime
                                                                                             Crime Employee
            2              1,047               $500,000                 $484,622
                                                                                               Dishonesty
                                                                                            Liability Coverage
            3                848             $1,000,000                 $458,830
                                                                                                (Various)
            4              1,137             $1,000,000                 $338,394              Fidelity Bond
            5                997             $2,000,000                 $293,676            Fiduciary Liability
            6                897             $1,000,000                 $254,673                Surety Bond
            7                575               $622,000                 $251,884              Employee Theft
            8                682             $4,000,000                 $249,275              Crime - Primary
            9                502               $500,000                 $238,380                   Crime
           10                696               $100,000                 $205,567             Employee Theft2
           11                456               $850,000                 $196,075           Employee Dishonesty
           12                582             $1,000,000                 $195,217           Employee Dishonesty
           13                436           $10,000,000                  $190,831                   Crime




1
  These cases were taken from an earlier SSA Office of the Inspector General audit, Representative Payees’ Ability
to Monitor the Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146), June 2012.
2
    See FFS Representative Payee #10 in Table C–1.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                     C-1
                         Total
                      Number of
        FFS                                                        Total Monthly             Type of Policy
                     Beneficiaries      Bond or Insurance
    Representative                                                Benefit Payments         Listed on Bond or
                      Managed              Coverage
       Payees                                                        Managed              Insurance Document
                        During
                       FY 20111
                                                                                               Employee
             14             621             $1,000,000                  $185,920
                                                                                            Theft/Dishonesty
             15             460               $500,000                  $132,421            Employee Theft
                                            $1,000,000                                     General Liability or
             16             325                     or                   $91,968            Excess/Umbrella
                                            $5,000,000                                          Liability
             17             281               $900,000                   $81,477           Commercial Crime
             18             266               $400,000                   $80,586          Social Security Bond
             19             311             $1,000,000                   $78,696             Employee Theft
             20             267             $1,000,000                   $67,380          Professional Liability
             21             268               $500,000                   $56,941                  Crime
             22             204               $290,000                   $52,173             Employee Theft
             23             241               $500,000                   $50,880            Employee Theft
                                                                                          Professional Liability
             24             141             $1,000,000                   $33,712
                                                                                                Coverage
    Totals               15,492                                       $5,531,267
Note 1: This includes beneficiaries who may have been with the representative payee for only part of the FY.
Note 2: The representative payee’s $100,000 employee theft policy was $105,567 less than our estimate of monthly
        benefit payments in FY 2011 of $205,567. As of March 2013, the representative payee increased its bond
        coverage to $1,000,000, which would sufficiently cover potential beneficiary losses.

We determined 19 of the 24 non-governmental FFS representative payees purchased bond or
insurance coverage from 5 insurance companies. Most insurers offered bond and insurance
coverage policies with a minimum of 1-year coverage. Bond and insurance coverage offered by
the insurers included Employee Theft, Crime, Professional Liability, Fidelity Bonds, and Surety
Bonds. Agency guidance provided the field office staff with a description on bond and insurance
policies available to representative payees. 3 We also obtained information on various types of
bonds from the Insurance Information Institute (see Table C–2). 4




3
 Social Security Administration, POMS, GN 00506.105—Bonding and Licensing Guidelines for Non-
Governmental Fee-for-Service (FFS) Organizations (effective October 24, 2011).
4
 The Insurance Information Institute is a U.S. industry organization whose mission is to improve public
understanding of insurance – what it does and how it works. The Institute provides information to consumers, the
media, researchers, and the public on a wide range of insurance topics.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                    C-2
             Figure C–1: Types of Bond and Insurance Coverage Associated with
                    the 24 Non-Governmental FFS Representative Payees




       Table C–2: Types of Bond and Insurance Policies and Definitions of Coverage
           Type of Policy                               Description of Coverage

                                  Refers to property coverage for the perils of burglary, theft and
   Crime
                                  robbery.
                                  Covers direct losses and damage to businesses resulting from the
   Employee Dishonesty
                                  dishonest acts of employees.
                                  Protection covers policyholders for losses resulting from fraudulent
   Fidelity Bond                  acts by specified individuals. It usually insures a business for losses
                                  caused by the dishonest acts of its employees.
                                  Fiduciary liability insurance covers breaches of fiduciary duty such
   Fiduciary Liability            as misstatements or misleading statements, errors and omissions, by
                                  guaranteeing the performance of certain parties’ responsibilities.
                                  Protects professionals that operate their own businesses against
   Professional Liability
                                  financial losses from lawsuits filed against them by their clients.
                                  A surety bond guarantees performance in the face of a set of
   Surety Bond                    particular risks. Surety bonds are also uniquely tailored to meet
                                  specific needs.
 Source: Insurance Information Institute.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                 C-3
Appendix D – PRIOR FEE-FOR-SERVICE REPRESENTATIVE
             PAYEE REVIEWS
We reviewed two Social Security Administration (SSA) Office of the Inspector General (OIG)
payee misuse cases to gain insight on the importance of adequate bond coverage in helping
Agency collection efforts. 1 The two fee-for-service (FFS) representative payees, Scope Payee
Services, Inc. (Scope), and Consciously Aware Services that Empower, Inc. (CASE), involved
FFS payees that misused approximately $1.5 million in beneficiary funds. Both cases illustrate
the complexity of ensuring bond sufficiency and timely collection of bonds. The findings
regarding Scope and CASE, as well as the results of subsequent discussions with SSA managers,
are provided below.

Scope Payee Services, Inc.
Scope did not maintain adequate bond coverage to protect beneficiaries or SSA from financial
loss caused by its officers or employees. 2 As of April 2008, Scope’s bond requirement was
approximately $1.9 million. However, Scope maintained only $900,000 of bond coverage and
improperly named itself as the insurance contract beneficiary rather than SSA. In 2005,
independent accountants reviewing Scope’s operations reported the bond deficiency to SSA, but
the problem was never corrected. On April 2, 2008, the Office of the San Francisco Regional
Chief Counsel (RCC) formally notified Scope’s bondholder of SSA’s intent to pursue a claim
against the bond if the OIG’s investigation identified any misuse of funds by Scope’s owners or
employees. The OIG review of available accounting records indicated that more than
$1.3 million belonging to 744 Social Security beneficiaries was missing from the collective bank
account. On September 6, 2011, the San Francisco Region’s Center for Program Support drafted
a letter to the insurer tendering a $900,000 claim for the full dishonesty coverage amount under
Scope’s bond.

During our review, we discussed this case with RCC staff and learned that, in April 2008, SSA
advised the insurer that there was a criminal investigation into Scope, and SSA would make a
claim on the policy in the event of a finding of misuse. SSA also indicated that the U.S.
Attorney’s Office’s Financial Litigation Unit contacted the insurer on SSA’s behalf and advised
SSA that a policy was in place for only one of the many years which the theft of funds took
place.




1
 SSA, OIG, Memorandum: Scope Payee Services, Inc.: A Fee-for-Service Representative Payee (A-06-09-49067),
July 2012, and Organizational Representative Payee in Ohio (A-05-08-48109), June 2010.
2
 The minimum amount of bonding or insurance coverage must equal the average monthly amount of Social
Security payments received by the organization plus the amount of the beneficiaries’ conserved funds.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)             D-1
On July 11, 2012, the attorneys representing the payee’s insurer sent a letter to the Department of
Justice, anticipating a claim on SSA’s behalf. The attorney’s letter discussed the underwriters’
position regarding the claim, and indicated the following.

   The policy language was unambiguous and precluded the underwriters from having an
    obligation to pay any claim submitted by SSA to make restitution either to SSA or the
    defrauded Social Security beneficiaries for benefits converted by the payee.

   The policy’s intention as stated was to protect the insured in the event it suffered a
    diminution of its assets resulting from employee dishonesty.

   The policy did not intend to be a liability policy protecting third parties from wrongful acts
    by either the insured’s principals or its employees.

For all of the reasons stated above, it appeared the underwriters believed they did not have a duty
to pay SSA with respect to this matter.

At the time of our review, collection activities on the bond were still underway.

Consciously Aware Services that Empower, Inc.
CASE was a nonprofit agency founded in February 2004 and based in Cleveland, Ohio. A
periodic financial review conducted in December 2007 by an SSA contractor raised a number of
questions about the condition of the accounting records. In our June 2010 audit report, we noted
that CASE owes SSA approximately $172,200 related to funds owed to specific beneficiaries
from our audit period ($30,200) and unreturned funds related to the ending balances when it
ceased to operate as a representative payee ($142,000). We also found CASE did not maintain
appropriate bond insurance coverage protecting the Agency’s interests, as required. CASE held
a bond insuring employee theft during the period January 18, 2007 through January 18, 2008
covering losses totaling $50,000 of insurance per occurrence. However, during our audit period,
the conserved funds plus the average monthly amount of Social Security payments of the SSA
beneficiaries totaled approximately $100,000.

The bond had expired when SSA notified CASE that beneficiaries would be transferred to new
representative payees. A review of the bond document determined that SSA was never named
on the bond, so the Agency most likely had no coverage under the bond regardless of the
document’s expiration. We learned that CASE was not included in an Agency mailing to FFS
representative payees in August 2007 advising them to have SSA’s name added to their bond.
The Cleveland FO manager indicated that CASE was not advised of this requirement because
they were not listed as a FFS representative payee within SSA records, even though CASE had
been a FFS representative payee since January 2005. As a result, SSA’s beneficiaries lacked the
required protection under the bond and any losses may now be the responsibility of SSA.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)      D-2
Appendix E – QUESTIONNAIRE RESPONSES
We obtained feedback from managers and staff in 10 Regional Office (RO) Centers for Programs
Support, 10 Regional Chief Counsel (RCC) offices, and 87 field offices (FO) 1 we surveyed
regarding their experiences with assessing bond and insurance coverage, 2 as well as the credit
risk review process for non-governmental fee-for-service (FFS) representative payees. We
highlighted selected questionnaire responses below. Overall, we identified two areas from the
questionnaire indicating a need for greater management attention: (1) increasing regional
coordination regarding bond policy language and (2) improving the credit risk review process.
We also found the regions were still resolving the majority of the collection attempts on bond
and insurance policies.

Guidance and Training
About 70 percent of the RO respondents indicated they monitored FO efforts to ensure adequate
bond coverage at FFS representative payees. In addition, 60 percent of the RO respondents
indicated they participated in the decision to approve an organizational representative payee’s
request to collect a fee. We also found that 7 of the 10 RCC respondents provided guidance to
regional staff regarding bond coverage, and the 3 remaining RCC respondents were not sought
out to assist regional staff regarding bond coverage issues. Moreover, about 90 percent of the
FO respondents indicated they were satisfied with the support or guidance they received
regarding the monitoring of FFS organizations. Finally, the majority of the FOs indicated they
received guidance on monitoring FFS organizations from regional operations. Although most
FOs stated they were not provided with training in these areas, they used the RO as a resource as
well as available policy and procedure instructions when they had questions.

Regional Coordination on Bond Language
Some RO respondents stated that, given the complexity of bond language, the Agency would
benefit from greater sharing of best practices related to bond policy sufficiency, including having
RCC staff review the policies to assess and enhance policy language adequacy and consistency.

For instance, one RCC respondent noted,

           We believe it is important to look at the bond/insurance policy to determine whether
           they cover all individuals involved in the organizational representative payee—one
           policy we looked at excluded officer-shareholders, partners, and owners. We believe
           it is important to ensure that SSA can make a claim and receive direct payment under
           the policy. We believe it is important to ensure that there are no limiting clauses, such
           as those that would limit recovery to the time at which the theft is initially discovered.



1
    Of the 96 FOs we contacted, 87 (91 percent) responded to our questionnaire.
2
    Throughout the report, the term “bond” can represent either a bond or insurance policy.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)             E-1
        Finally, we believe it is important to ensure that the policy does not have a substantial
        deductible.

Greater coordination between the FO, RO, and RCC could help ensure the bond policies are
properly structured to protect the Agency’s interest in any cases of misuse. While the Social
Security Administration (SSA) provides guidance to Agency staff on what to consider when
reviewing a bond policy, this is a complex area where a legal expert’s skill can enhance the
process.

Improving the Credit Risk Review Process
We determined that 4 of the 10 RO respondents thought the Headquarters-prepared credit report
summaries were not valuable when they decided whether to approve an organization’s request to
become an FFS representative payee. Moreover, 7 of the 10 RO respondents indicated that
credit report summaries provided limited information for determining whether to approve an
organization’s FFS request. Among the FO questionnaires, we found additional comments that
the credit report summaries contained limited information on newer organizations. As noted in
the body of the report, we believe SSA would benefit from additional guidance on ways staff can
monitor new FFS representative payees projected as high risk, or where the contractor-prepared
credit reports provided limited financial information.

Collection on Bond and Insurance Policies
We also obtained feedback from the regions on their ability to collect on bond and insurance
policies. 3 In the case of the regional offices, four regions reported a total of six attempts to
collect on such policies during the previous 2 years. Of the six attempts,

   one collection attempt was successful, though the bond amount was insufficient and covered
    only 56 percent of the loss;

   one collection attempt failed because SSA was not named in the policy; and

   four collection attempts were still pending at the time of our review.




3
 We are conducting a separate review to learn more about the Agency’s ability to collect on bond and insurance
policies. See SSA, Office of the Inspector General, Agency Actions Concerning Misuse of Benefits by
Organizational and Volume Individual Representative Payees (A-13-12-21247).



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                      E-2
Appendix F – BACKGROUND CHECKS ON FEE-FOR-SERVICE
             REPRESENTATIVES PAYEES
SSA background checks on FFS organizations are limited to credit checks on the organization
rather than the officers of the FFS organization. However, other options have been discussed
and implemented related to criminal risk analysis of representative payees.

In July 2007, the National Academy of Sciences (NAS) issued a report on Improving the Social
Security Representative Payee Program: Serving Beneficiaries and Minimizing Misuse that
contained several recommendations to improve SSA’s representative payment program. For
example, NAS recommended SSA screen potential payees (including organizational payees) for
suitability based on specified factors associated with misuse, particularly credit history and
criminal background.

At the time of our review, SSA was conducting a limited suitability assessment of individual
representative payees nationwide, such as reviewing prisoner and fugitive information reported
to the Agency, and asking a number of questions regarding prior convictions as part of the
representative payee application process. 1 In addition, in FY 2012, following a news story of
representative payee abuses, SSA began piloting a new payee selection policy barring payee
applicants with certain violent or financial crimes from serving as individual payees in the
Philadelphia Region. 2 Before SSA initiated this new policy, individuals who committed such
crimes were not automatically barred from serving as representative payees. 3 As of June 2013,
the Philadelphia Region had reviewed 26,395 individual representative payee applications and




1
  Individual and organizational representative payees use the same application when applying to serve as a
representative payee. However, only individual representative payees are asked multiple questions about past
convictions, imprisonment, and outstanding warrants.
2
  The Philadelphia Region includes Delaware, Maryland, Pennsylvania, Virginia, West Virginia, and the District of
Columbia. The violent or financial crimes that could bar potential representative payee applicants under the pilot
included human trafficking, false imprisonment, kidnapping, rape/sexual assault, first degree homicide, robbery,
fraud to obtain governmental assistance, fraud by scheme, theft of government funds/property, abuse/neglect,
forgery, and identity theft. There was an exception to the policy for certain custodial relationships.
3
  SSA, POMS, GN 00502.132A.1—Persons barred from serving as representative payee, states that some
individuals are prohibited from serving as payees (effective October 28, 2011).



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                    F-1
barred 223 applicants from becoming representative payees. 4 In January 2014, SSA’s Acting
Commissioner approved nationwide implementation of the new payee selection process. 5

While the nationwide suitability assessments and new payee selection process are limited to
individual representatives payees, these oversight procedures may provide SSA managers with
ideas for overseeing FFS representative payee organizations. Moreover, given the lack of credit
risk information on some FFS representative payee organizations, we believe SSA should
consider expanding its risk review process to organizations not already vetted by State or local
authorities, which could include additional financial questions as well as obtaining credit reports
for officers of FFS representative payees. In addition, given how SSA has expanded its use of
criminal background checks for individual payees, SSA should consider a similar pilot requiring
greater information on prior criminal activity for FFS representative payee organizations, which
could include additional background questions as well as background checks for officers of FFS
organizational representative payees.




4
  How Social Security Protects the Benefits of Those Who Cannot Protect Themselves: Hearing Before the Social
Security Subcommittee, House Committee, on Ways and Means, 113th Cong. (June 5, 2013) (statement of LaTina
Burse Greene, Assistant Deputy Commissioner for Retirement and Disability Policy, Social Security
Administration). At the hearing, the Assistant Deputy Commissioner also noted that the Agency planned to expand
the pilot in the Philadelphia region to include use of an electronic system to obtain third-party criminal information
on payee applicants.
5
 National Implementation of the Representative Payee Criminal Bar Policy – DECISION, Memorandum from
Carolyn W. Colvin, Acting Commissioner of SSA, January 23, 2014.



Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)                        F-2
Appendix G – AGENCY COMMENTS




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)   G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
"BOND AND FINANCIAL CREDIT RISK REQUIREMENTS FOR
NON-GOVERNMENTAL FEE-FOR-SERVICE REPRESENTATIVE PAYEES"
(A-05-12-11225)

Recommendation 1

Issue a reminder to employees to follow policy related to bond and insurance oversight,
including reviewing bond and insurance coverage annually, completing all sections of the
triennial site review questionnaires, and reviewing credit report summaries before authorizing
fees.

Response

We agree. We will publish a reminder in fiscal year (FY) 2014.

Recommendation 2

Continue sharing regional best practices related to bond and insurance coverage and the credit
risk review process, including those mentioned in this report, such as greater coordination with
RCC staff.

Response

We agree. In FY 2014, we will share regional best practices related to bond coverage, insurance
coverage, and the credit-risk review process.

Recommendation 3

Determine whether the Agency needs to standardize and streamline its bond and insurance
coverage methodology to ensure the type and amount of bond or insurance coverage is
appropriate for the underlying risk.

Response

We agree. In calendar year (CY) 2014, we will review our bond and insurance coverage policy
to determine if we can streamline the methodology while ensuring fee-for-service (FFS)
organizations have appropriate bond coverage.

Recommendation 4

Provide additional guidance on the steps staff should take for new FFS representative payees
projected either high risk or where contractor-prepared credit reports provide limited financial
information.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)        G-2
Response

We agree. By the end of CY 2014, we will provide additional guidance to staff on actions to
take if an organization has a high-risk credit report or limited financial information.

Recommendation 5

Consider enhancements to its current credit risk review process for FFS representative payee
organizations not already vetted by State or local authorities to add a greater level of fraud risk
protection.

Response

We agree. In CY 2014, we will analyze our current review process for FFS representative payee
organizations to determine if we should enhance the current requirements.




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)       G-3
Appendix H– MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Deborah Kinsey, Audit Manager, Chicago Audit Office

Lorrie Clement, Auditor-in-Charge

Linda Smid, Auditor

Sherri Holmes, Auditor

David Rodriguez, Attorney




Bond and Financial Credit Risk Requirements for Non-governmental FFS Payees (A-05-12-11225)   H-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
